<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                        THURSDAY, JUNE 18, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:34 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patty Murray (chairman) presiding.
    Present: Senators Murray, Specter, Bond, Alexander, and 
Collins.

                      DEPARTMENT OF TRANSPORTATION

                        Office of the Secretary

STATEMENT OF HON. RAY LAHOOD, SECRETARY

               OPENING STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. The subcommittee will come to order. 
Senator Bond got the message on what to wear today. I see the 
Secretary and Senator Collins. I did too and I chose not to, 
just so you know.
    Welcome to all of you. Welcome Secretary LaHood. Thank you 
so much for being here today.
    In April of this year Secretary LaHood testified before 
this subcommittee about the American Recovery and Reinvestment 
Act. And I'm excited to say that billions of dollars included 
for transportation projects are now flowing into our 
communities across the country. In my home State of Washington 
over $500 million is beginning to move into projects from 
Seattle to Spokane creating jobs and boosting our economy.
    Today though, we are going to focus on the President's 
fiscal year 2010 budget request for the Department of 
Transportation which is critical as we face the challenge of 
rebuilding our country's transportation infrastructure. And I 
am glad to see that the President's budget request reflects a 
renewed interest in improving the entire transportation system. 
And it recognizes that it takes many different modes of 
transportation to create an integrated national system.
    The President's budget request includes: More than $51 
billion for highways and transit; $1 billion to continue the 
investments in high speed rail that were started in the 
Recovery Act; $3.5 billion for airport investments; $1.5 
billion for grants to Amtrak; $175 million to protect essential 
air service for smaller communities across the country; and $15 
million for a new initiative within the Department of Homeland 
Security to improve the security, efficiency and capacity of 
our Nation's ports and waterways.
    I also want to acknowledge the work that Secretary LaHood 
is doing in coordination with Secretary Donovan at the 
Department of Housing and Urban Development. Their partnership 
is an important first step toward helping communities make 
vital connections between workplaces, family homes and 
neighborhood schools. And although I'm glad to see important 
investments being made in the President's budget, I am also 
painfully aware that we have tough questions to answer this 
year.
    We cannot face these challenges with ideas alone. We must 
start talking about concrete, realized solutions. The most 
pressing problem we face today is the looming bankruptcy of the 
Highway Trust Fund. The Trust Fund needs an estimated $5 to $7 
billion before August of this year or we may see transportation 
projects come to a standstill, State budgets will be thrown 
into crisis and thousands of family wage jobs will be put in 
jeopardy.
    In addition the Highway Trust Fund needs another $8 to $10 
billion to support transportation programs through fiscal year 
2010. As this subcommittee develops its bill for funding 
programs at the Department of Transportation we cannot allow 
the stability of the Highway Trust Fund to be called into 
question. Its stakes are too high for our States, our 
communities, families and commuters.
    Yesterday the Department announced a general framework for 
extending transportation programs for 18 months, enacting major 
reforms to those programs and ensuring the short term solvency 
of the Highway Trust Fund. By offering this framework the 
Department's announcement is a step in the right direction. 
However, critical details are still missing and the Department 
has not yet offered specific ways to replenish the balance of 
the Highway Trust Fund.
    Furthermore the Department's announcement offers very 
little insight into how it proposes to use cost benefit 
analysis, focus investments in metropolitan areas and promote 
this concept of livability. Although the Department is 
interested in tying together a short term fix for the Highway 
Trust Fund with reforms to our transportation programs, I do 
have some very serious concerns about that approach. I do not 
oppose on principle the effort to improve Federal 
transportation programs, but I don't want to allow debates over 
those reforms to prevent us from saving the Highway Trust Fund 
in a timely manner.
    The time has come to discuss specific solutions to the 
short fall. And these discussions will require Congress to work 
closely with the administration. But this work requires more 
clarity and better communication than we've been getting so 
far.
    Another area of concern for this subcommittee is the safety 
of our air transportation system. Although air transportation 
continues to be one of the safest ways of traveling, the crash 
of Colgan Flight 3407 is a reminder that the regulations, 
inspections and procedures of the Federal Aviation 
Administration are all in the service of protecting human life. 
The FAA recently announced it is requiring its safety 
inspectors to focus their efforts on determining if regional 
air carriers are complying with Federal requirements for pilot 
training. But the crash near Buffalo, New York raises important 
questions about FAA requirements related to pilot fatigue and 
qualifications and about the relationship between legacy and 
regional air carriers.
    I know earlier this week the Department and the FAA 
gathered representatives from air carriers and other industry 
groups to participate in a summit on airline safety. That 
summit was designed to address many different aspects of 
aviation safety. And I will be interested to hear what the 
Secretary has learned from that meeting.
    Finally, I want to express my concern about the 
administration's proposal for a national infrastructure bank. 
Investing in our infrastructure is critical. But we need to 
ensure that it is financed responsibly. Whether this bank is 
requested from funds appropriated by this subcommittee or 
included in a proposal for the reauthorization for service 
transportation programs, I think there are a lot of unanswered 
questions that need to be addressed.
    Again, Secretary LaHood, thank you so much for appearing 
before us today to provide some additional detail and insight 
into the President's budget request. And with that I will turn 
it over to my partner and ranking member, Senator Bond for his 
opening remarks.

            OPENING STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you, Madam Chair. And I agree with the 
concerns you raised. I welcome an old friend, Secretary LaHood.
    I thank him for appearing again before our subcommittee and 
taking on this very challenging project as we both agree. I 
think it is wise as a fellow Midwesterner that he knows in hot 
weather these suits are much more comfortable. And we don't 
demand adherence. That's the beauty of the two party system, 
some wear suits and some--anyhow.
    To be serious, Mr. Secretary, there appears to be a 
troublesome communication gap between the administration, 
Department of Transportation, OMB and the Senate. We're hearing 
about major policy initiatives after they've been reported 
without a heads up from the Office of Governmental Affairs, 
policy or public affairs. In fact the general public had access 
to the information before many of us did.
    In most cases however, we're not hearing anything 
substantive regarding the transportation budget from the 
administration. They're going to make--they're going to do all 
these wonderful things without raising gas taxes, without 
raising taxes, with no information from OMB how it might be 
paid for, and that, I might add, with no policy guidance or 
direction from the Department.
    The budget submission that we're trying to work with, as I 
have indicated to you, lacks some very important details. We 
don't know how to put this baby together. Because we don't know 
where the numbers are or how it's all going to work.
    We know the devil is in the details in all these things. 
But these are really big details when a major policy 
implications for the Nation and we're running out of time to 
get the answers we need. In fact we will be getting our 302(b) 
allocations today which will dictate what this subcommittee can 
or cannot fund.
    And I'll tell you the prospects do not look good. I don't 
see how we, from what I think we're going to get, I don't know 
how we can do what we have to do. But we need some guidance 
from you.
    The budget has, before, has the same boiler plate language 
for FHWA, Federal Motor Carrier Safety Administration, FMCSA, 
National Highway Safety Administration, NHTSA and the Federal 
Transit Administration, FTA. The language reads, ``The 
administration is developing a comprehensive approach for a 
surface transportation authorization. Consequently the budget 
contains no policy recommendation for programs subject to 
reauthorization including Federal aid highways. Instead the 
budget displays baseline funding levels for all surface 
programs.''
    As we've discussed we got to find out from OMB what these 
decisions are. And we hope that you will be able to get those. 
And we will be able to get those shortly. So we can begin work.
    I know there are many difficult transportation challenges 
facing the Nation. But we can't refuse to deal with them or put 
off the tough decisions because we've got a schedule that we 
have to meet for this fall. I say only have facetiously that 
footnote to the boiler plate the budget documents should say, 
we still don't know how to pay for highways.
    Getting the $36 billion in general funds is probably not 
going to happen. And the highway number is likely not to be 
baseline funding from what we know at this point. I hope that 
will change.
    We've been given some other important information since 
receiving the budget. And that's not good news. The trust fund 
is going bust, not just for 2010, but for 2009.
    Three weeks after getting the budget staff got a briefing 
that the numbers in the budget for the Highway Trust Fund 
needed to be updated due to climbing cash balances in the 
Highway account of the Highway Trust Fund which will cause the 
fund to run out of money to handle day to day reimbursements. 
The Highway Trust Fund is now scheduled to fall below $4 
billion around July 3. And DOT has determined that at least a 
$4 billion balance is needed in the Highway account to manage 
cash flows.
    Sometime in the near future we're told DOT will give the 
State departments of transportation 8 weeks' notice of a change 
in reimbursement policy with a balance falling below zero in 
mid August. It won't be possible for us to complete our bill 
and conference by that time. So some solutions have to begin to 
be debated right now.
    Everybody said we wanted to get jobs which were shovel 
ready. And I was very disappointed that the stimulus package 
that I felt was flawed and could not vote for did not deal with 
the rescission in highway funding, that $8 billion rescission. 
And the shortfall is something that if you want shovel ready 
projects there's nothing like contracts that have already been 
completed the environmental work, the preparation to keep 
people working. We should have been continuing to build 
highways.
    In testimony before our House counterparts on June 4, you 
testified you're working on solutions to fund $5 to $7 billion 
that will be paid for with offsets. I'd be interested to see 
what OMB comes up with since that time as well as what the 
administration believes it will need to do to meet the 
projected $8 to $10 billion shortfall for the Highway Trust 
Fund in 2010. As I said we'll be voting on allocations later 
today, a 302(b) allocation in BA and outlays will at this point 
not sustain your requested level of general funds at $36 
billion with all of the other expected priorities of the bill.
    Another problem I've been talking about and I've asked you 
about it. Our April 30 hearing on the American Recovery and 
Reinvestment Act is the rescissions as I mentioned. They'll be 
September 30; they'll be a looming $8.7 billion if nothing is 
done.
    Highway funds we thought were going to ARRA to create job 
stimulation. But without solving the rescission problem there 
will be massive losses of jobs in the late summer when we need 
to be putting those projects to work, creating and continuing 
those jobs and building the highways we badly need. FHWA has 
helpfully advised our staff that, ``This is a very complicated 
rescission to calculate. And FHWA staff is working hard on it. 
Although we know the total amount to be rescinded from each 
State, we still cannot determine the programmatic distribution 
which many of you want to know.''
    In other words the Department does know how to make the 
rescissions or whether they can make rescissions called for or 
if there's going to be a fix. This is information I hope we 
will be able to get from OMB. So we can move forward.
    Now I also understand that funding for high speed rail at 
$1 billion over the next 5 years is the highest priority for 
the Department and the administration to supplement the $8 
billion in ARRA funding already. The high speed rail guidance 
that was recently announced has little to spell out how the 
additional funds will be used. And what the goals for a 
national rail plan due out in October this year, will try to 
achieve in terms of a vision.
    GAO has reported it is continuing to work on high speed 
rail oversight. In testimony before the House Appropriations 
Committee, GAO said, ``High speed rail does not offer a quick 
or simple solution to relieving congestion on our Nation's 
highways and airways. High speed rail projects are costly, 
risky, take years to develop and build and require substantial 
upfront public investment as well as potentially long term 
operating subsidies.''
    GAO goes on further to say that there are potential long 
term benefits of high speed rail. However determining which of 
any of the proposed high speed rail projects should be built 
will require decisionmakers to be able to determine a project's 
economic viability. Meaning whether the total social benefits, 
offset or justify it, total social cost and what the relative 
benefits and costs of the alternatives will be.
    I will apologize because in the first round of questions 
I'm going to have to go to an Energy and Public Works mark up 
this morning which is considering a Clean Water Act amendment 
proposal that will eliminate the navigable waters limitation on 
the reach of corps of engineers and EPA guidelines over waters. 
As a result if this is passed and I have grave concerns about 
it. It will mean every pond and every puddle in the United 
States will be subject to Federal guidance.
    Every time we have a heavy rain storm the terrace behind my 
garage in Missouri floods. And I have to get a sump pump to 
pump it out. Now will I have to get an EIS to pump out that 
pond that develops?
    Senator Murray. Are there fish in it?
    Senator Bond. Pardon?
    Senator Murray. Are there fish in it?
    Senator Bond. No, mosquitoes. And that's why I need to pump 
it out. But the problem is if this goes through every single 
puddle that a high speed rail project crosses will have to get 
an EIS.
    That can add 10 years to a major high speed rail project. 
It's just a suggestion that we might want to consider when 
voting on it. Anyhow I digress.
    My concern is that there is not sufficient funding, truly, 
to reduce congestion on our Nation's highways and airports. If 
as the current guidance outlines, the money goes to so many 
different projects. We'll be spreading the money so thin and 
wide we'll have nothing to show for it. Frankly, what will an 
additional $1 billion per year in grants do that the previous 
$8 billion did not?
    Has the administration determined how the question of 
operating assistance will be addressed on these projects? We 
should not be paying to build it and then paying a heavy load 
continually to operate it. There should be conditions on grants 
to those communities on who and how they plan to pay for 
operating high speed rail in order to use these tax dollars.
    And another major issue that's a real problem in my State 
with regard to Mexican trucks. We have discussed this. And I'm 
awaiting additional information from the Department on what, if 
anything can be done about the Mexican Government's retaliation 
over the terms of NAFTA on tariffs to the tune of $2.4 billion 
of U.S. agricultural and manufacturing exports.
    As you know, Mr. Secretary, over $1.5 billion in 
manufactured products and $900 million in agricultural products 
are impacted by the retaliation. This is something I warned 
about unsuccessfully every time we've had this debate. It was 
forced through, signed into law.
    And the Mexican Government took the steps that they were 
totally authorized to take. And according to pork producers the 
retaliation puts over 12,000 ``Ag'' jobs and 14,000 
manufacturing jobs at risk. We need to know if their plans to 
live up to the terms of NAFTA and open the border.
    Turning to aviation, I am pleased to see that the airport 
improvement program is funded at a level that is both realistic 
and sufficient to fund the Nation's airport construction needs 
which is welcome change from the past administrations, both 
Republican and Democrat. Unfortunately the good news ends there 
with increased funding needs for NextGen, a new contract 
pending for the air traffic controllers and further issues 
being exposed in the area of aviation's safety. There are a 
number of top budgetary choices and policy challenges facing 
the Department.
    Mr. Secretary, as you can see we really need some realistic 
decisionmaking, especially in regards to highways and 
rescissions. We're not likely to have the funds we need to meet 
all the Department of Transportation and Department of Housing 
and Urban Development needs. But the more we work together with 
the various authorizing committees and the administration in an 
open, bipartisan manner, the more likely we'll find those 
solutions.
    After all transportation is something that both parties 
recognize is good for the Nation. And we want to have good 
common sense solution. Our transportation infrastructure like 
our highways, roads and bridges are the life blood of our 
economy, the key to future economic growth and economic 
recovery. We can't afford to pass the buck because solving 
these problems is critical to creating jobs, safer travel and 
economic development.
    I thank you, Madam Chair. I apologize for the length of the 
statement. But I wanted to lay out these concerns. Thank you 
again, Mr. Secretary for being here.
    Senator Murray. Thanks very much, Senator Bond. Senator 
Collins.

                   STATEMENT OF SENATOR SUSAN COLLINS

    Senator Collins. Thank you very much, Madam Chairman. First 
let me commend you for allowing your good taste to overcome 
peer pressure.
    Senator Murray. Absolutely.
    Senator Collins. To wear a seersucker suit today. That is 
impressive as well.
    Senator Bond. Now that you bowed to peer pressure.
    Senator Collins. I did indeed.
    Senator Bond. That's good.
    Senator Collins. Let me say to you and Senator Bond that I 
am delighted to be a new member of your subcommittee. And I 
look forward to working with both of you on transportation 
issues and the other important jurisdiction of this 
subcommittee.
    Maine, like most States has a long backlog of deteriorating 
roads and bridges. And I was delighted a couple of weeks ago to 
meet with the head of a road construction company from Maine 
who told me that as a result of the stimulus bill there are 100 
people working doing repaving who otherwise would not have 
jobs. So I believe we're seeing some early, very positive 
results of the stimulus package with regard to infrastructure 
improvements that are so needed.
    Nevertheless as both the chairman and the ranking member 
have pointed out, there is an awful lot to be done. I'm eager, 
Mr. Secretary, to have you come to Maine and to visit the 
University of Maine. And see the work that's being done on 
composites to be used to build bridges that will last longer 
and offer other advantages.
    I'm also pleased that the administration has provided a 
substantial increase in the essential air service funding. This 
program is critical for smaller rural States, like Maine, to 
ensure that the rural regions receive commercial airline 
service. There are many other important issues that we will 
discuss today. But I want you to know, Mr. Secretary, that the 
number one transportation issue in my State is that of truck 
weights. And I look forward to discussing that issue further 
with you.
    Again, Mr. Secretary, I couldn't help but think how 
different it must be for you to be sitting on that side of the 
dais. And I think we're very fortunate to have an individual 
with your background and understanding of Congress in such an 
important role in President Obama's cabinet. Thank you, Madam 
Chairman.

    Senator Murray. Absolutely. Thank you very much, and 
Senator Alexander, opening statement.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thanks, Madam Chairman. Welcome, Mr. 
Secretary, look forward to working with you.
    I wanted to just call to your attention. The other day they 
shut down an 8 mile section of Interstate 40 in Knoxville, one 
of the most heavily traveled interstates in Tennessee for 14 
months. And they fixed it.
    And usually it would have taken 3 to 4 years. It was called 
a Smart Fix program. And it was an example of more efficient 
use of our highways. And we'll have a chance to discuss more, 
but one of the thoughts I've had for a few years is why don't 
we have a Federal rating for highway use efficiency?
    When we rate cars, you know, by fuel efficiency. And one of 
your predecessors told me that 40 or 50 percent of our traffic 
jams are caused by the inefficient use of highways by, you 
know, trying to fix them at 4 o'clock in the afternoon or 
wrecks that don't get pulled off the road. I think if you had, 
Senator Bond and I have both been Governors.
    I think if you had a list of States 1 to 50 rated based 
upon their highway efficiency use and Tennessee were 50, 
somebody could get elected Governor just based on that. And you 
might see some changes in it. So it's just a thought I have.
    I look forward to talking with you. And I appreciate the 
chance to make a comment.
    Senator Murray. Thank you very much. Mr. Secretary, with 
that we will turn it over to you for your opening remarks.

                      STATEMENT OF HON. RAY LAHOOD

    Secretary LaHood. Madam Chair and members of the 
subcommittee, thank you for the opportunity to discuss the 
administration's fiscal year 2010 budget request for the U.S. 
Department of Transportation.
    The President seeks a total of $73.2 billion in budgetary 
resources. This funding level supports the President's 
ambitious agenda for revitalizing and enhancing our national 
transportation infrastructure. It's essential that we continue 
to invest in these assets to keep our highways and rails in 
good repair, keep our freight and maritime shipping lanes open 
and keep all modes of transportation operating as efficiently 
and safely as possible.
    Safety always has been and must continue to be our chief 
concern. That's why over one-quarter of the Department's total 
budget request supports transportation safety. I want to 
highlight the President's fund request for some of our critical 
modes.
    First, high speed and inner city passenger rail: As you 
know President Obama and Congress have made a historic $8 
billion investment to jump start new rail corridors around the 
Nation. The President's budget proposes to fund a 5 year, $5 
billion high speed rail State grant program.
    This represents a major commitment by the Government to 
offer the traveling public a safe and sustainable alternative 
to driving and flying. The budget also includes $1.5 billion in 
grants to support Amtrak. When this is combined with the $1.3 
billion provided in funding through the Recovery Act, Amtrak is 
poised at last to address its long standing capital needs.
    With respect to aviation, the President's budget requests 
nearly $16 billion for the Federal Aviation Administration. 
This level will enable us to fund the FAA's highest priorities 
including $865 million to keep NextGen air transportation 
moving forward. With these resources FAA will also be able to 
fund additional air traffic control positions and invest in 
nearly 3,500 airport infrastructure projects at 1,500 airports.
    The maritime industry also plays a vital role in our 
economy with nearly half of all U.S. foreign trade by value 
traveling by water. The President's budget seeks $346 million 
for the Maritime Administration. This includes $15 million for 
a new Presidential initiative to enable MARAD to work with the 
Department of Homeland Security on modernizing our inter mobile 
freight and infrastructure links that tie ports, highways and 
rail networks into a seamless transportation network.
    I'm confident that the President's transportation budget 
for 2010 will help our Nation continue to develop our most 
vital transportation assets for the 21st century. Nevertheless 
one of the most significant challenges our Department faces 
going forward is the ability to identify sufficient resources 
to meet our goals. And provide the American people with the 
transportation system they need and deserve.
    I'm grateful to Congress for providing more than $48 
billion in transportation funding through the American Recovery 
and Reinvestment Act and proud of our tiger team effort in 
implementing the provisions in the Recovery Act. By working 
across organizational boundaries the team has been successful 
in meeting the Congressional deadlines. Every deadline has been 
met that was put in the law; the historic investment is making 
it possible for thousands of transportation projects around the 
country to get underway.
    As a direct result we're helping to save or create good 
paying jobs that so many families and communities need right 
now. And we're rebuilding, retooling and revitalizing our 
airports, roads, bridges, ports, transit systems and more. But 
we must also recognize that the two primary funding sources the 
Department has long relied on fuel tax and airline ticket taxes 
are no longer sufficient.
    As you know last year the Highway account of the Highway 
Trust Fund required an $8 billion cash transfer from the 
general fund in order to remain solvent. The current reduction 
in economic activity has made the problem of sustainability 
even more serious. We remain at risk for yet another cash 
shortfall in the Trust Fund as soon as mid to late August.
    The administration has inherited a system that can no 
longer pay for itself. Clearly we cannot continue on this path. 
Therefore we're proposing an immediate 18-month Highway 
Reauthorization that will replenish the Highway Trust Fund.
    Critical reforms are needed as a part of this process to 
help us better invest, to make better investment decisions 
including focusing on smarter investments in metropolitan areas 
promoting the concept of livability to more closely link home 
and work. I urge Congress to pass this measure before the 
August recess so that States do not risk losing the vital 
transportation funding they need and expect. I assure you we 
are working on a long-term solution.

                           PREPARED STATEMENT

    We're pledged to work with you and every Member of Congress 
on the full reauthorization that best meets the needs of the 
country. And I'm confident we'll find the necessary solutions. 
Thank you for the opportunity. I look forward to your 
questions.
    [The statement follows:]

                 Prepared Statement of Hon. Ray LaHood

    Madam Chairman, members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the administration's 
fiscal year 2010 budget request for the U.S. Department of 
Transportation. The President's request totals $73.2 billion in 
budgetary resources, which will support major investments in 
transportation nationwide that are vital to the health of our economy 
and the American way of life.
    The President's budget continues record level investments in our 
Nation's transportation infrastructure. At the same time, the budget 
reflects the growing recognition that traditional gasoline taxes and 
airline ticket taxes, two of the major sources of funding for the 
Department's surface transportation and aviation programs, 
respectively, are outdated and not adequate to support 21st century 
transportation needs.
    On February 17, 2009, President Obama signed into law the American 
Recovery and Reinvestment Act of 2009. I want to thank Congress for 
providing more than $48 billion in vital transportation funding to both 
help bring about economic recovery and make lasting investments in our 
Nation's infrastructure. This is both an investment in our 
transportation infrastructure and in jobs for Americans. The resources 
made available from the general fund for transportation infrastructure 
in the Recovery Act will help to rebuild, retool, and revitalize the 
vast network of roads, tunnels, bridges, rail systems, airports, and 
waterways that we have long depended on to keep the economy moving and 
growing. I am very proud of our TIGER Team effort in implementing the 
provisions in the Recovery Act. By working across organizational 
boundaries, the Team has been successful in meeting the Congressional 
deadlines.
    America's transportation systems are the lifeblood of our economy, 
and when properly maintained can be a catalyst for economic growth. 
These systems allow people to get to jobs and allow businesses to 
access wider pools of labor, suppliers, and customers. The ability to 
move freight efficiently will be critical to our economic recovery. 
Without efficient transportation routes, economies stagnate. We need to 
protect, preserve, and invest in our transportation infrastructure to 
ensure that it can meet our present and future demands.
    Above all, we must make our transportation systems safe; where 
public safety is concerned there is no room for compromise. Over $18.5 
billion, or one-quarter of the total request for the Department, will 
support transportation safety. I am mindful that safety--on the road, 
on the rails, in the air, and on the water--has always been, and must 
continue to be, the central focus of the Department.

                    SURFACE TRANSPORTATION PROGRAMS

    The Safe, Accountable, Flexible, Efficient Transportation Equity 
Act: A Legacy for Users (SAFETEA-LU) expires on September 30, 2009. The 
administration is developing a comprehensive approach for surface 
transportation reauthorization. Consequently, the budget contains no 
policy recommendations for programs subject to reauthorization, 
including those for the Federal Highway Administration, the Federal 
Motor Carrier Safety Administration, the National Highway Traffic 
Safety Administration, and the Federal Transit Administration. Instead, 
the budget displays baseline funding levels for all surface 
transportation programs.
    An overarching concern for surface transportation funding is the 
status of the Highway Trust Fund. The funding levels set in SAFETEA-LU 
for fiscal years 2005 through 2009 were designed to spend down the 
accumulated balance in the Highway Account of the Highway Trust Fund. 
This has left the Highway Account unable to sustain spending from 
current highway programs into fiscal year 2010. The sustainability 
issue became apparent when in 2008 the Highway Trust Fund required an 
$8 billion cash transfer from the general fund in order to remain 
solvent.
    The current reduction in economic activity has only exacerbated the 
problem of sustainability for fiscal year 2010, and we remain at risk 
of yet another cash shortfall later in fiscal year 2009. At my 
direction, the Department has shared our internal projections on the 
status of Highway Trust Fund with you and your staff. As you all know, 
DOT's highway programs continue to pay out more than the receipts 
coming into the Highway Trust Fund.
    To highlight the growing imbalance between projected Highway Trust 
Fund revenues and baseline spending, the fiscal year 2010 budget 
includes lowered Highway Trust Fund funding levels for certain programs 
(i.e., Federal-aid Highways and Transit Formula and Bus Grants). Such 
funding reductions would be necessary to maintain positive annual cash 
balances. For these programs, the budget also includes discretionary 
budget authority appropriated from the general fund equal to the 
difference between the baseline funding and the lowered Highway Trust 
Fund funding levels.
    Under the funding scenario presented in the fiscal year 2010 
budget, the Federal Motor Carrier Safety Administration and the 
National Highway Traffic Safety Administration would be funded entirely 
from the Highway Trust Fund. The split between trust fund and general 
fund expenditures in all accounts funded by the Highway Trust Fund is 
for presentation purposes only and not a meant to be a policy 
recommendation on the part of the administration.
    Using the Federal Highway Administration as an example, the 
baseline funding level presented in the fiscal year 2010 budget is 
$41.8 billion, a 1 percent increase from the amount provided by 
Congress in the fiscal year 2009 Omnibus Appropriations Act. However, 
the Highway Trust Fund can only support an estimated $5.7 billion in 
contract authority, and an equivalent obligation limitation. The 
balance--$36.1 billion--is assumed to be provided from a new 
discretionary general fund appropriation.
    Does this mean that we will have a $36 billion shortfall in the 
Highway Account of the trust fund in fiscal year 2010? No. During any 
given year, most of the payments from the Highway Trust Fund are for 
funding commitments that were made in previous years. By fiscal year 
2010, the majority of revenues that will be deposited into the Highway 
Trust Fund will be needed to cover cash outlays from those prior-year 
commitments.
    The President's fiscal year 2010 budget reflects the fact that over 
the long term, we will need to identify a new funding solution to 
ensure that we continue to meet our Federal surface transportation 
infrastructure investment needs. However, I need to emphasize that this 
budget is a ``placeholder'' and this presentation does not reflect the 
administration's recommended funding levels or approach for the next 
surface transportation reauthorization.
    The administration inherited a difficult problem--a system that can 
no longer pay for itself. There simply is not enough money in the 
Highway Trust Fund to do what we need to do. The fiscal year 2010 
budget frames the challenging spending decisions facing policymakers. 
Clearly as we approach the reauthorization of surface transportation 
programs, we will need to think creatively as we search for sustainable 
funding mechanisms.
    I want to assure you that we will soon have a plan to address the 
potential Trust Fund shortfall this summer. We believe very strongly 
that any Trust Fund fix must be paid for. We also believe that any 
solution must be tied to reform of the current highway program to make 
it more performance-based and accountable, such as improving safety or 
improving the livability of our communities--two priorities for me.

                       FEDERAL AVIATION PROGRAMS

    The Federal Aviation Administration is in a similar situation as 
DOT's surface transportation programs in that its current authorization 
also expires at the end of the current fiscal year. The Vision 100--
Century of Aviation Reauthorization Act originally expired at the end 
of fiscal year 2007, and since that time the Federal Aviation 
Administration has been operating under a series of short-term 
extensions. Current aviation taxes and expenditure authority are 
authorized through September 30, 2009.
    The Airport and Airway Trust Fund provides all of the funding for 
the Federal Aviation Administration's airport improvement, facilities 
and equipment, and research and development activities, as well as 
approximately 70 percent of the Federal Aviation Administration's 
operations. As of the end of the current fiscal year, DOT estimates 
that the Airport and Airway Trust Fund will have a cash balance of 
approximately $9.5 billion and an uncommitted balance of $929 million. 
The uncommitted balance takes into account the amount of cash needed to 
cover commitments that have already been made. As such, the uncommitted 
balance is generally used as an estimate of available resources for new 
commitments. The fiscal year 2010 budget projects that the uncommitted 
balance will drop to $334 million by the end of fiscal year 2010. 
Although the budget estimates a small uncommitted balance in fiscal 
year 2010, the end of year 2010 cash balance is estimated to be $8.75 
billion and the Federal Aviation Administration will have more than 
sufficient resources to implement its programs in fiscal year 2010.
    The President's budget requests nearly $16 billion for the Federal 
Aviation Administration in 2010. The budget also assumes some basic 
elements of a reauthorization proposal. The current financing system is 
based largely on aviation excise taxes that depend on the price of a 
passenger's airline ticket rather than the actual cost of moving 
flights through our Nation's aviation system. Starting in 2011, the 
budget assumes that the air traffic control system will be funded with 
direct charges levied on users of the system. While the budget does not 
include a detailed reauthorization proposal, the administration 
believes that the Federal Aviation Administration should move toward a 
model whereby the agency's funding is related to its costs, the 
financing burden is distributed more equitably, and funds are used to 
pay directly for services the users need. The administration recognizes 
that there are alternative ways to achieve its objectives, and wants to 
work with Congress and stakeholders to enact legislation that moves 
toward such a system.
    Unlike the budget presentation for surface transportation programs, 
the fiscal year 2010 budget request of nearly $16 billion for the 
Federal Aviation Administration is not a ``placeholder'' and, in fact, 
would fund the Federal Aviation Administration's highest priority 
requirements.
    The request includes $865 million for the Next Generation Air 
Transportation System (NextGen)--an increase of close to $170 million 
from the fiscal year 2009 enacted level. NextGen is an evolutionary 
process that will transform the way the national air transportation 
system operates. The outcome will be reduced congestion and delays, 
improved safety, and reduced noise and emissions.
    In addition, the budget request includes funding to increase the 
number of air traffic controllers by 107 and the number of safety staff 
by 36. This will improve the Federal Aviation Administration's safety 
oversight function and meet its current need to continue to hire a new 
generation of air traffic controllers in advance of the anticipated 
retirements.
    The budget request would provide $3.5 billion for the Airport 
Improvement Program. This level of funding will support an estimated 
3,500 infrastructure projects at an estimated 1,500 airports, including 
the rehabilitation and maintenance of existing infrastructure, 
compliance with design standards, and improved airport capacity.

                HIGH-SPEED AND INTERCITY PASSENGER RAIL

    In the 20th century, the United States built highway and aviation 
networks that fueled unprecedented economic expansion, fostered new 
communities, and connected cities, towns and regions.
    The President's fiscal year 2010 budget proposes to help address 
today's transportation challenges by investing in a world-class network 
of high-speed passenger rail corridors that connect communities across 
America. Building on the $8 billion provided for high-speed rail in the 
American Recovery and Reinvestment Act of 2009, the President's budget 
proposes to fund a 5 year, $5 billion high-speed rail State grant 
program. This represents a major commitment by the Federal Government 
to provide the traveling public with a viable alternative to driving 
and flying.
    The budget also includes $1.5 billion in grants to support the 
National Railroad Passenger Corporation (Amtrak)--$572 million for 
operating grants and $930 million for capital and debt service grants. 
When combined with the $1.3 billion in funding provided for Amtrak 
under the American Recovery and Reinvestment Act, the fiscal year 2010 
request will allow Amtrak to begin to address some of its long-standing 
capital requirements.

                           MARITIME PROGRAMS

    The U.S. maritime industry plays an important role in today's 
global economy. In terms of the value of cargo, more than 48 percent of 
U.S. foreign trade and 6 percent of our Nation's domestic commerce 
travels by water. The fiscal year 2010 budget request includes $346 
million for the Maritime Administration. This request fully funds the 
Maritime Security Program at $174 million and provides $153 million for 
Operations and Training, including a $12 million increase for the U.S. 
Merchant Marine Academy for operational and capital improvements.
    In fiscal year 2009, the Maritime Administration took positive 
steps to address and remediate certain internal control issues related 
to budget implementation at the Academy. These steps include 
significant financial management reforms at the Academy and technical 
assistance for new Academy leadership. I have also directed MARAD to 
establish a ``blue ribbon'' panel of experts who will examine and 
report to me on the Academy's long-term capital improvement needs.
    The budget also provides an increase of $15 million under MARAD 
Operations for a Presidential initiative to support integrated planning 
with the Department of Homeland Security for development and 
modernization of intermodal freight infrastructure that links coastal 
and inland ports to highway and rail networks.
    The fiscal year 2010 request for the Saint Lawrence Seaway 
Development Corporation includes nearly $17 million for agency 
operations and fully funds the second year of the Seaway's 10-year 
Asset Renewal Program.
    Before I conclude my testimony I also want to mention two other 
notable items in the President's fiscal year 2010 budget request for 
DOT. This request will enable the Pipeline and Hazardous Materials 
Safety Administration to fill 18 additional pipeline safety inspection 
and enforcement positions. This will bring the total number of 
inspection and enforcement positions up to 135 in fiscal year 2010, 
meeting the target in the Pipeline Inspection, Protection, Enforcement, 
and Safety Act of 2006.
    Finally, the administration is committed to maintaining small 
communities' access to the National Airspace System. The budget 
provides $175 million for the Essential Air Service (EAS) program to 
fulfill current program requirements as demand for subsidized 
commercial air service increases. The budget drops an earlier proposal 
to restructure the eligibility criteria for airports to receive EAS 
funding, but also acknowledges that the program design must be updated 
and made more cost effective. The administration is committed to 
working with Congress to develop a more sustainable program that will 
provide better value for passengers and the American taxpayer.
    Thank you for the opportunity to appear before you today to discuss 
the President's fiscal year 2010 budget proposal for the Department of 
Transportation. I believe that this proposal offers bold initiatives 
and charts a new course for transportation infrastructure investment in 
the United States over the years to come. I look forward to working 
with Congress and transportation stakeholders to make this reality.
    I will be pleased to respond to your questions.

                           HIGHWAY TRUST FUND

    Senator Murray. Thank you very much, Mr. Secretary. Let me 
just say that as you know most of the spending that comes out 
of the Highway Trust Fund over the coming year is going to be 
used to reimburse our States for projects that they actually 
developed a year or so ago. So basically most of today's 
spending from the Trust Fund was committed a long time ago.
    We need to fix the Highway Trust Fund to make good on those 
commitments that are now already out there. Our home States 
have been spending their own funds on these eligible 
transportation projects with the assurance that they're going 
to be reimbursed. So if we don't make good on our promise than 
we're going to throw our States into a financial crisis right 
when many of them are already facing really distressful times 
during this economic recession.
    Now I just heard you testify that it's necessary to include 
reforms to the transportation programs as part of the 
legislation to fix the Highway Trust Fund before the August 
break which I think we've got 5 weeks left of session to do 
that. Those reforms are important. They affect future decisions 
about transportation projects and not just the reimbursements 
that are going to occur over the coming months.
    So let me ask you why is it necessary to reform the 
transportation programs in order to save the Highway Trust Fund 
over the short term?
    Secretary LaHood. We at least need to have a discussion 
about this. Our priority is to work with OMB and the Congress 
to find the money to plug the Highway Trust Fund for the next 
18 months. During our discussions we should at least talk about 
the way forward and begin discussions about some reforms.
    Our priority will be to work with all of you to plug the 
Highway Trust Fund, to find the money to do it and to pay for 
it. We'd like for part of our discussion to be about reforms 
because we know that over the next 18 months as we work with 
Congress, we're going to be talking about reforming the 
transportation program.
    I want to be clear on this. We're going to work with all of 
you to find the money to plug the Trust Fund, to pay for it.
    Senator Murray. OK.
    Secretary LaHood. During our discussions we'd like to talk 
about reform.
    Senator Murray. OK. But one of my concerns--and you're 
raising some interesting points about transportation and 
supporting livable communities. It sounds good.
    But those are major reforms to our transportation system 
that you're asking us to define in a few short weeks of 
Congress and pass by August to get the Highway Trust Fund 
fixed. So I mean, do you think Congress can enact major reforms 
in the 5 weeks we have before the end?
    Secretary LaHood. From the day that the President was sworn 
in on January 20 through February 14 the Congress passed a $780 
billion Economic Recovery Plan. The answer is that we can have 
discussions. Whether we can get to the point where we can 
include these as a part of our fix for the Highway Trust Fund, 
we'll have to see.
    Senator Murray. But here's----
    Secretary LaHood. Madam Chair, let's throw it out there and 
see if we can have a discussion. That's all.
    Senator Murray. Yes. I think discussions about how we 
reform our transportation system are important. But as a 
realist I know that we've been sent a judicial nominee. We have 
appropriations mark ups to get out. The President wants us to 
do health care reform. And we basically have 5 weeks of 
session.
    So I'm very concerned that the Highway Trust Fund being put 
into the mix of some major policy discussions won't see the 
light of day. And what we'll end up with is our States who are 
waiting for this money will get caught in that. And that's what 
I'm asking you to understand.
    Secretary LaHood. Our No. 1 priority is to fix the Highway 
Trust Fund, to pay for it, to find the money. Along the way 
here if we can have discussions about these other things, I 
think we should.
    Senator Murray. Conversations are great. Passing 
legislation is hard. I just want to make sure we're all 
committed to getting the Highway Trust Fund fixed by August.
    Secretary LaHood. You have my commitment to do that.
    Senator Murray. OK. Thank you. I appreciate it.
    And the conversation is important. But I am concerned about 
some of the lack of details from your announcement. You're 
offering a general framework for us. But we can't wait very 
long for a proposal.
    So can you explain to me how we would fix the Highway Trust 
Fund? Whether the fix would be paid for and how we'd pay for 
it? Is that part?
    Secretary LaHood. The fix will be paid for and our staff is 
working with OMB to----
    Senator Murray. Can you tell us when we'll see a proposal?
    Secretary LaHood. Very soon.
    Senator Murray. OK, because obviously recess is fast upon 
us. So I'm very concerned about that. So as soon as we----
    Secretary LaHood. I take your point.

                            AVIATION SAFETY

    Senator Murray. OK, very good. Let me ask you about the 
Colgan air crash.
    The Department has taken a number of actions to improve 
aviation safety. And I know you've pulled together some 
meetings with representatives to talk about safety 
improvements. I know we've been promised that we're going to 
see some drafting on new rules on flight time, pilot flight 
time, that are based on scientific research. And the Department 
is talking about relying on voluntary actions from the 
airlines.
    Do you think that voluntary actions will get us to where we 
need to be?
    Secretary LaHood. Well, let me first say that we have 
probably the most qualified FAA Administrator in the country. 
Randy Babbitt is superb, experienced, a 25 year pilot, 
commercial pilot, businessman and former President of the 
Airline Pilots Union. Nobody knows these issues better than the 
FAA Administrator.
    The meeting that we held at the FAA a few days ago had an 
overflow crowd. We had people that wanted to come and we just 
didn't have room.
    These folks came up with very, very good suggestions. Randy 
made it very clear and I made it very clear to them that we 
want to work with the airlines. We want to work with the pilots 
unions. We want to work with everybody.
    We're not going to sit around on our hands and wait for 
something to happen. If things don't happen quickly we're going 
to take action either by suggesting legislation to Congress or 
by rule making.
    Senator Murray. OK.
    Secretary LaHood. We're not going to wait until January 
until the NTSB makes its report. We're going to give them a 
little time here to think about some of the things that were 
suggested and recommended. I guarantee it.
    We're going to take action. Safety is our No. 1 priority in 
all of our modes.

                             MEXICAN TRUCKS

    Senator Murray. OK, very good. And just real quickly in my 
last few seconds, Mexican trucks?
    We have been working on this subcommittee long and hard on 
this. Senator Bond mentioned it in his opening remarks. The 
punitive tariffs are impacting everybody right now.
    Can you give me a quick update on where the 
administration's progress is on developing a plan?
    Secretary LaHood. We are making the final tweaks to the 
proposal. It involves a lot of different agencies. It involves 
agriculture, transportation, the State Department. There are a 
lot of players here.
    We're putting the final tweaks on it and we hope to begin 
to meet with you folks and your staff to explain what we've 
tried to do collectively to address the issues that many 
Senators expressed to us about their concerns about safety and 
the Mexican truck program.
    Senator Murray. OK. Well we hope to be able to mark up our 
bill fairly soon after the July recess. So hopefully we can get 
it before then so we can get this resolved. Thank you.
    Senator Bond.
    Senator Bond. Thank you, Madam Chair and Mr. Secretary. I 
second the questions that the chair asked. And I won't go into 
them here. But you and I have had a discussion about the 
funding.
    On Mexican trucks I would point out that this subcommittee 
has in the past put all kinds of safety requirements and safety 
standards and guidelines and inspections on the Mexican trucks. 
From what we have understood they have met every single one of 
those tests. And now it would seem to me that the negotiations 
would have to be with our partner to the South on what we can 
do since we have violated the terms of agreement of NAFTA.
    And it's wonderful that all the agencies are talking to 
each other. But the problem is we have to resolve the dispute 
with Mexico. Is that--is the Government of Mexico involved in 
the discussions?
    Secretary LaHood. I met with 28 Members of Congress to try 
and discern what it takes to get Senators and House Members to 
the notion that we can develop a very safe program. I heard 
lots of good suggestions and recommendations and lots of ways 
to measure safety.
    We've included those in our proposal and very soon you'll 
be seeing that. Frankly, we have not shared that with the 
Mexican Government.
    It's an internal document based on conversations and 
recommendations that we got from Members of Congress who 
frankly didn't like the program, but we have not shared it with 
the Mexican Government if that's what you're asking me.

                           HIGHWAY TRUST FUND

    Senator Bond. Well we have for 3 years put mores to every 
good idea that we've got and we put on it. And to my knowledge 
they've done enough. Some--if people don't like the program 
they're going to have to explain it to the 25,000 American 
workers who are going to lose their jobs.
    But moving onto the Highway Trust Fund, if there's a fix 
are you--do you agree with the current Highway Transit split, 
80/20? And I would ask you, the budget has assumed a $36 
billion general fund appropriation for highways. Are those 
funds going to be used for title 23 eligible activities only 
like the trust fund dollars?
    Secretary LaHood. The fix is going to be for highways and 
transit. Is that what you're asking?
    Senator Bond. Yes. I mean is there a separate--are you 
going to keep the same splits?
    Secretary LaHood. Yes, sir.
    Senator Bond. Or are you going to have different funds?
    Secretary LaHood. No, we're going to fix both and the 
formulas. We're not going to change those.
    Senator Bond. ARRA provides 10 percent for operating 
assistance on transit. Is it going to be the policy of the 
administration to support operating assistance in the future?
    Secretary LaHood. The supplemental bill that is pending now 
in the Senate includes a provision that allows for 10 percent 
to be used for operating. If you all pass that and the 
President signs it, it will be the law.
    Senator Bond. Going forward are you recommending because if 
you start--if we start subsidizing operating assistance we're 
going to have to have a whole lot larger budget allocation than 
we have. That's the thing I'm worried about.
    Secretary LaHood. We're going to follow the law. In the 
supplemental there's a provision that allows for money to be 
used for operating.
    When I've testified before Congress before I've said I'm 
open minded about this. It makes no sense to send money out to 
these transit districts to buy buses if there's nobody there to 
drive them or there's nobody there to operate the transit 
district.
    The House has spoken on this, eventually I think you all 
will and if the President signs it, it will be the law. We'll 
follow the law.

                            HIGH SPEED RAIL

    Senator Bond. Well, I have some other questions about the 
burdens. For example, on the high speed rail strategy the--we 
need some guidance on there. Without some guidance from the 
Department I'm concerned we could end up in an unfortunate 
situation where States in each rail corridor go down their own 
way creating operating inefficiencies, greater operating and 
maintenance costs.
    And are there steps you can then take to assure that there 
is a process for developing common specifications. For example, 
for rail locomotives latest technology and what can the 
Department do in the short term to encourage American companies 
to invest in locomotive manufacturing and renew a domestic 
manufacturing capability?
    Secretary LaHood. We put guidance out yesterday for all 
those that have high speed rail interest. We think it's very 
good guidance. We think it really gives people an opportunity 
to see what we're looking for.
    We have set a deadline for September to receive 
applications. We'll review those and then we'll determine how 
the money is going to be spent.
    This money is going to be spent correctly. And according to 
the guidance that we have given to people. We developed the 
guidance after traveling around the country and holding, I 
think, 11 or 12 regional meetings and inviting all the high 
speed rail enthusiasts to come to Washington and meet with the 
Vice President and myself.
    We've had lots of meetings on this. We think we're headed 
in the right direction. But I want to assure you that the $8 
billion will be spent correctly to really jump start our 
opportunities to have high speed rail.

                        AIR TRAFFIC CONTROLLERS

    Senator Bond. We want to make sure that there's guidance 
there to assure that it's spent wisely.
    Mr. Secretary, I know the top priority is to settle the 
dispute between the air traffic controllers and the FAA. I'm 
concerned about what the dollar cost of it because there's 
nothing in the budget for it. And I just got some figures that 
of the 74 of the top 100 controllers earn more than the Vice 
President of the United States and the Speaker of the House.
    Now maybe they're worth more than that. But of the top 
1,000 contributors, 300-411 earn more than $198,000 which is 
more than a Cabinet Secretary, you make, Majority and Minority 
Leaders of Congress. And I just wonder if you're going to be 
able to meet the needs if those salaries continue to go up.
    Secretary LaHood. Well just by way of background for the 
subcommittee, we have engaged Jane Garvey to lead the 
negotiations. Two mediators have been hired.
    They've closed out many issues and they're very close on 
several others. The final issues will be salaries and vacation 
and those kinds of things.
    We're working with Jane and her team on what it's going to 
cost to really get into an agreement with the controllers. 
We're closer than we've ever been and this process has worked 
very well.
    Senator Bond. Thank you, Mr. Secretary. I thank the chair. 
If you'll excuse me I have some votes to go take in another 
committee.
    Senator Murray. Alright, Senator Collins. Thank you very 
much, Senator Bond.
    Senator Collins. Thank you, Madam Chair. Mr. Secretary, I 
want to associate myself with the question that Senator Murray 
brought up about the safety of regional carriers. In my State 
even the largest airports in Bangor and Portland are primarily 
served by regional commuter airlines.
    In fact, in Bangor, almost 80 percent of the passengers are 
being carried on commuter airlines. Even in Portland our 
largest airport, it's more than 71 percent. Do you anticipate 
the administration presenting a plan to ensure the safety of 
commuter airlines?
    Secretary LaHood. Yes and very soon. Again, after our 
meeting Randy Babbitt will be traveling around the country and 
visiting with people who could not come to Washington. He's 
going to do that very quickly.
    I had a conference call for over an hour with the family 
members of those that perished in the flight in Buffalo. They 
offered me some very good suggestions and recommendations. When 
Randy gets back from this little regional tour that he's going 
to be on and after we assess whether the airlines and the 
pilots are going to be able to comply with some of the things 
that were recommended, we will have a good report with good 
recommendations about whether we think there should be 
legislation or rule making or if some of these things are going 
to be done voluntarily.
    We have to assure the flying public that when they get on a 
commuter airline, it's safe and that the pilots that are flying 
them are well trained and well rested. That's--it's the bottom 
line. We're committed to doing that.

                             TRUCK WEIGHTS

    Senator Collins. Great. Thank you. I appreciate that 
commitment.
    I mentioned in my opening statement that the biggest 
transportation issue in the State of Maine has to do with truck 
weights. And I want to give you a little more background on 
that issue. Right now trucks weighing up to 100,000 pounds are 
permitted on the interstate highways in New Hampshire, 
Massachusetts, and New York as well the Canadian provinces of 
Quebec and New Brunswick.
    But when they are traveling through Maine they're only 
allowed on Interstate 95 from the New Hampshire border until 
they get to Augusta, Maine. Interstate 95 continues another 200 
miles in Maine up into Aroostook County to Houlton. The result 
is that the heaviest trucks are forced to leave the Interstate 
and travel through small villages, through downtown Bangor.
    In the last couple of years there have been two fatalities 
in Bangor involving heavy trucks that have been trying to 
navigate through busy downtowns or on rural roads and 
neighborhoods. This just doesn't make sense. The State police 
have implored us to fight for an increase in the weight limit 
because they believe that it will reduce the number of 
accidents.
    The State legislature has passed a resolution with the 
support of the Governor and the entire delegation urging 
Congress to address this issue. This is bicameral, bipartisan. 
Everyone is for it.
    And unfortunately we've had a great deal of difficulty in 
trying to correct this disparity. As you can imagine this is 
also a big economic issue. There's more wear and tear on 
secondary roads in our State because of the heavy trucks.
    It's a commerce issue when trucks traveling from Canada 
down through Maine have to carry lower loads. It's an energy 
issue as well because we're putting more trucks on the road. I 
realize that this requires a legislative fix, but I would ask 
today that the Department work with Maine officials on both 
sides of the aisle, State and Federal, to help us develop a 
plan to remedy what is a serious safety and commerce issue. So 
I'm asking you today if you will help us address this important 
issue.
    Secretary LaHood. I certainly will and we're looking at 
this in the Department. When I was in New Hampshire and Vermont 
recently to announce some road projects with Senator Sanders in 
Vermont and Senator Shaheen in New Hampshire, people raised 
this issue with me and both the Senators also raised it with 
me.
    I know it's a very, very critical issue and we will work 
with the Congress on the way forward to try and find the right 
fix for it.
    Senator Collins. Thank you very much, Mr. Secretary. Thank 
you.
    Senator Murray. Thank you very much. Senator Specter.

                                 MAGLEV

    Senator Specter. Thank you, Madam Chairwoman. Mr. 
Secretary, thank you for taking on this important, tough job. 
Thank you for your trips to Pennsylvania, including Cumberland 
County last week.
    There is considerable public interest, as you know, on 
using the Stimulus funding and getting into action. And that 
issue becomes more sharply focused as you see the public 
opinion polls expressing concerns about the deficit and the 
national debt. And I think the public concerns would be allayed 
to some extent, although it's a mounting problem from what I 
sense in my State and nationally be allayed to some extent if 
the funds were allocated and people could see some results from 
them.
    Let me thank you for your prompt action in releasing the 
$950,000 from the Federal Highway Administration to the Federal 
Railway Administration. That is very, very helpful on the 
MAGLEV. Pursuing MAGLEV there has been appropriations of $45 
million for the eastern part of the State which could be 
awarded to MAGLEV.
    That appropriation was made sometime last spring, the 
spring of 2008. And there has been concern about matching funds 
from Pennsylvania on the 20 percent. But I would ask you to 
take a look at that to see if some of it could be advanced to 
the extent we can get those matching funds.
    Because I think Governor Rendell would be anxious to move 
ahead. And the work on the robotic arms to construct it could 
begin. So if you would take a look at that.
    Secretary LaHood. Yes, sir.
    Senator Specter. I would appreciate it.
    Secretary LaHood. I'll do it.
    Senator Specter. There's a different MAGLEV low speed from 
the University of California which is south of Pittsburgh. And 
there is $1.5 billion in the stimulus package which could be 
allocated. And that project is looking for $200 million to move 
ahead.
    And that would come in the category. And I know how much 
you have on your plate and how many items you have. But if that 
money could be forthcoming, people could see where it is going.
    The trip you made to Cumberland County was very helpful 
because they see a bridge being constructed. Secretary 
Napolitano was at the Philadelphia airport on baggage handling 
for explosives. They can see $26 million. So there again, it 
would be very, very helpful.
    One of the key rail projects in Pennsylvania is Schuylkill 
Valley Metro which would run from center city Philadelphia to 
Reading and would take an enormous amount of pressure off the 
Schuylkill expressway. And that's a virtual parking lot. And we 
have scaled that back from some $2 billion using existing lines 
to a much, much lesser figure. But it's still a problem of 
getting it lined up with a local match.
    There is $24 million which would lapse on September 30. And 
I would ask you to take a personal look at that, not to 
reprogram it because that program is alive. It's been a long 
time in coming.
    But some think it would be enormously important. And even 
when we're trying to take people off the highways and OPEC oil 
and pollution and all the rest of it because that I'm 
determined to see that happen and so is Senator Casey and so is 
the Pennsylvania delegation.
    Secretary LaHood. I'll look into it and get back to you.
    [The information follows:]

    DOT is waiting for the fiscal year 2011 appropriations bill 
to determine the status of the funds earmarked for the 
Schuylkill Valley project.

                            HIGH SPEED RAIL

    Senator Specter. OK. I'd appreciate that. There's another 
rail line, Scranton to Hoboken, which would enable some 
tentative plans for a Wall Street West to be constructed in 
Northeastern Pennsylvania to take the pressure off of Wall 
Street into Manhattan. And the concerns which have been 
expressed in having all of those very important records and 
matters in one concentrated spot in light of what happened to 
the Trade Center.
    I'm not looking to make any predictions or say anything 
which would cause something to happen. But it's a target area. 
And there is now a 30 day public comment period on the 
environmental review.
    And when that finishes it would be very helpful if there 
was a response from the Department of Transportation on the 
next step moving forward. I've given you quite a laundry list 
here, Mr. Secretary. But you've got some of the really critical 
projects as they affect transit.
    Let me ask you--give you a chance to respond a little bit 
as to what you see with the $8 billion on high speed rail. That 
is an item which would be very beneficial on the Philadelphia 
to Pittsburgh run.
    Where do you see the allocation of funds coming on that?
    Secretary LaHood. We put the guidance out yesterday and 
it's up on our Web site so everybody can see it. We know that 
all the real enthusiasts have already read it. Some are putting 
together their applications right now for funding.
    I believe that by September we will receive applications. 
Some will come from a State, and some will come from regions, 
multistate regions. I know that Governor Rendell is very 
interested in this program. He's attended every meeting that 
we've ever had on high speed rail whether it's here in 
Washington or in Pennsylvania.
    I think he and his team will be very aggressive in putting 
together a proposal that will comply with the guidance that we 
put out yesterday. This idea that $8 billion may not be enough 
I think is nonsense. It's 8 billion times more than we've ever 
had at the Department.
    It also is the first time in the history of the country 
that anyone has paid attention to high speed rail to this 
extent. I guarantee you this when President Eisenhower signed 
the interstate highway bill all the lines weren't on the map 
and all the money was not in the bank.
    We're starting and this is a very good start. With your 
help over the next 5 years and with another $5 billion, we're 
going to help people in America realize their dreams. We will 
also answer the question for people who travel abroad to Spain, 
Europe or Asia and come back having ridden on 250 mile an hour 
train. Why don't we have it in America? Because it's never been 
a priority.
    It's a priority for the President. It's a priority for the 
Congress who put $8 billion in the bill and we're going to make 
it happen.
    Senator Specter. Good. Senator Kerry and I had put in the 
bill some time ago for $15 billion. And there's a lot of 
interest in the Congress. And we will back you up.
    My final comment is another thank you on my list here. We 
got $8.5 million for a transit station for Southeastern 
Pennsylvania Transit Authority in Croydon, Pennsylvania. And we 
had a ground breaking on that facility.
    And that again was very helpful because it shows the people 
that the monies allocated to the stimulus package are being 
spent for a useful purpose. And the more of that the better to 
give some public confidence when they're looking at a deficit 
or looking at a debt that there's a real purpose behind it. And 
they're getting something for their money, so again, my thanks 
on that item.
    Secretary LaHood. Thank you, sir.
    Senator Murray. Thank you very much, Senator Specter.
    Senator Specter. Thank you.

                              ERAM PROGRAM

    Senator Murray. Mr. Secretary, I wanted to ask you about 
the ERAM program. It's an essential part of FAA's air traffic 
control system. It's the program that replaces outdated 
software that is used to manage our air traffic at high 
altitudes.
    And until recently that program has been operated on budget 
and ahead of schedule. But this year the aggress for that 
schedule that the FAA set for the program slipped a bit. Now 
the FAA is saying this program is still going really well. And 
it can be used to control traffic this year.
    But I want you to know I hear a very different story from 
the air traffic controllers who are in those facilities and 
testing that software. They tell me that ERAM is not 
operational and the schedule is unrealistic. Can you explain to 
me the different levels? Are you hearing that from air traffic 
controllers?
    Secretary LaHood. Every time that I travel around the 
country I do visit air traffic control towers. I get an earful 
from the folks that work there. I've not heard about this.
    Randy Babbitt's No. 1 priority is safety and that's the 
reason we had the safety summit. Prior to the Buffalo crash we 
would always say our No. 1 priority is NextGen, getting these 
TRACONs to a level where we have very capable people working as 
controllers in these TRACONs. We want to give them the best 
equipment possible.
    I will look into that issue. As I said I've been all over 
the country and I've not heard about it.
    I'll start asking the question when I go visit.
    Senator Murray. OK. I'd appreciate that. And if we could 
follow up with you on that----
    Secretary LaHood. Right.
    Senator Murray. With some of the concerns we're hearing.
    Secretary LaHood. Sure.

                            ADSB TECHNOLOGY

    Senator Murray. That'd be great.
    The FAA has also been highlighting ADSB as a centerpiece of 
its modernization efforts. That's the program that will allow 
the agency to replace its radars with the satellite based 
technology. Now the FAA has mandated that the airlines equip 
their airplanes with ADSB technology by 2020.
    I don't believe that mandate will be a success unless the 
airlines themselves see the benefit of investing in ADSB. And 
that means the FAA has to be able to change its regular 
operations to make use of that technology. Can you talk to me a 
little bit about what the Department is doing to make the case 
for equipping planes with the ADSB?
    Secretary LaHood. I've personally had discussions with the 
airline industry and I know that, again, this is a priority for 
Randy. He understands this probably as well as anybody because 
of his pilot experience.
    We've had some discussions with our friends at the White 
House about this in terms of what it's going to cost to 
implement a program like this. We realize that it's a very 
costly program.
    I just read recently where United just ordered a whole 
bunch of airplanes from Boeing. They're going to obviously be 
equipped with the kind of equipment that is going to be 
necessary to connect with what we're going to be putting in as 
our new NextGen equipment. We're going to work with the 
airlines on this.
    They want us to be helpful because this is a very costly 
thing for them and they're not exactly making a lot of money 
right now, as you know.
    Senator Murray. Right. It's a very tough time.
    Secretary LaHood. Right.

                     LIVABLE COMMUNITIES INITIATIVE

    Senator Murray. OK. I wanted to ask you, separate from the 
Highway Trust Fund that we talked about earlier. I want to ask 
about the Livable Communities Initiative.
    And I really do want to acknowledge your work in reaching 
out to Secretary Donovan from HUD and Administrator Jackson 
from EPA. I know that earlier this week all three of you 
unveiled a set of six principles for the administration's 
livability initiative. And as part of that you said that it 
needs to be easier for local and regional governments to 
coordinate housing and transportation planning.
    The authorizing committees I know are working on drafting 
bills for the next surface transportation authorization. If we 
want this new legislation to be informed by the Livability 
Initiative we've got to move very fast beyond the general 
principles and see some of the specific changes. And I wanted 
to ask you when you thought we could hear from you about some 
of the barriers in Federal law to integrated housing and 
transportation planning.
    Secretary LaHood. I think very soon. Our staffs have been 
meeting and I think we're putting together proposals right now.
    Within the next 30 days or so we can have what we're really 
putting on paper in terms of our opportunities to work with HUD 
and to work with EPA and to figure out what barriers exist and 
what changes need to be made in any kind of legislation.
    Senator Murray. OK. I'm very much looking forward to seeing 
what you have----
    Secretary LaHood. Great.
    Senator Murray. In terms of specific proposals on that.
    Secretary LaHood. I appreciate your support on this too.

                          WATER TRANSPORTATION

    Senator Murray. OK. And I want to ask you about water 
transportation. Our ports and waterways provide a great 
opportunity for both freight and passengers to get traffic off 
our roads. This is something we know well out in the Pacific 
Northwest with the Columbia River System and Puget Sound.
    So I'm really pleased that the administration is showing an 
increased interest in the maritime sector. One indication of 
this is the President's proposal for a new joint initiative 
with the Department of Homeland Security to increase security 
capacity and efficiency of our Nation's ports. It's a proposal 
that will develop the Nation's inner mode of freight 
infrastructure by linking our coastal and inland ports to 
highways and rail networks.
    Can you talk to me a little bit about that this morning? 
And tell me what you see and envision?
    Secretary LaHood. We need to make sure that the ports are 
secure. Congress has given us some directives on this.
    In order to comply with what we believe are opportunities 
to secure ports and to make sure that things that move in and 
out of ports are what they should be and that they don't cause 
a threat to people that live in those areas, we are combining 
our efforts with Homeland Security. We've put money in the 
President's proposed budget to deal with that.
    This administration and the Department are taking a great 
deal of interest in ports. The $1.5 billion in discretionary 
money, if you look at the guidance that we put out, will create 
some opportunities to enhance ports around the country to do 
exactly what you were saying initially in your statement here. 
We also are going to highlight the idea of the Marine Highway 
which can relieve congestion certainly all along the area where 
you live and the State you represent, all along that coastline 
where there are ports all along there.
    It's not only making sure that they're secure, that they're 
safe, that what comes in and out of there is checked properly, 
but also to highlight the importance of their expansion and 
using the Marine Highway as another alternative to relieve 
congestion on land.
    Senator Murray. Well as part of that we're very acutely 
aware in my State and several other States about the ability of 
our ferry system to get people off of roads. And I wanted to 
know if you thought that the next authorization, if you'll 
support me in helping make our ferry system better supported 
within the authorization.
    Secretary LaHood. Absolutely. The money that was in the 
economic recovery for that program is well over subscribed. 
There's a lot of interest in this. There's no question about 
it.
    Senator Murray. That is not surprising to me. And I think 
that helps make our case.
    Secretary LaHood. Right.
    Senator Murray. That there's a capacity out there that if 
we invest----
    Secretary LaHood. Exactly.
    Senator Murray [continuing]. That will really help us out.
    Mr. Secretary, you've been very kind to answer a number of 
questions this morning. We have a number of other Senators who 
were not able to be here today who want to submit questions to 
you including Senator Byrd who is unable to be here. But he 
asked that we submit questions on his behalf.
    Secretary LaHood. Certainly.
    Senator Murray. So I will do that for you.

                     ADDITIONAL COMMITTEE QUESTIONS

    And the record for this hearing will be open for another 
week so that Senators can submit questions for the record. And 
again, Mr. Secretary, thank you so much for being here today.
    Secretary LaHood. Thank you. Thanks for all your support 
for all of our issues too. We really appreciate it.
    Senator Murray. And we're looking forward to seeing you out 
in my State to see some of this on the ground or water.
    Secretary LaHood. Yes. We'll be there. Thanks for your 
leadership.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted by Senator Robert C. Byrd
    Question. Mr. Secretary, on February 26, 2009, you and I met in my 
office to establish what I had hoped to be a positive working 
relationship. During our meeting, I strongly emphasized the importance 
of providing funding to complete the Appalachian Development Highway 
System (ADHS), noting that finishing Corridor H was of great interest 
to me and my constituents. You indicated enthusiastically that you 
would work with me and West Virginia transportation officials in this 
regard.
    Knowing full well that West Virginia Governor Joe Manchin also 
recognizes the importance of completing Corridor H, I was not surprised 
when he advised you in a March 2, 2009 letter of his intentions to make 
$21 million available from the American Recovery and Reinvestment Act 
(ARRA) for several Corridor H contracts. Soon after his letter was sent 
to you, two news stations aired one-sided stories about Corridor H, 
ridiculing the State's efforts to complete this project. Much to my 
dismay, and that of the thousands of West Virginians who have been 
patiently waiting for the promise of this highway for nearly half a 
century, State officials suddenly, and with little explanation, 
redirected the $21 million toward other projects, letting an 
opportunity to make significant strides on this project go by the way 
side.
    Mr. Secretary, I have a copy of the March 18, 2009 letter that 
State officials sent to your office indicating that the State made a 
decision to divert funds from Corridor H on its own accord. However, 
rumors abound in my State that someone from the administration 
contacted WVDOT officials to strongly recommend that stimulus funds for 
Corridor H be directed elsewhere in light of the recent news stories.
    Mr. Secretary, I would like to know, for the record, did you, a 
member of your staff, or any other official of this administration 
contact officials of the West Virginia Department of Transportation to 
suggest that the $21 million in ARRA funds originally intended by the 
State for Corridor H be redirected toward other projects as a means to 
downplay the impact of the recent news stories about Corridor H?
    Answer. The West Virginia Division of the Federal Highway 
Administration (FHWA) has worked very closely with the West Virginia 
Department of Transportation (WVDOT) during the planning, programming, 
design and construction of projects funded by the American Recovery and 
Reinvestment Act (ARRA). Initially, the WVDOT included the subject $21 
million Corridor H project as a candidate for ARRA funding. During the 
programming and evaluation of candidate projects, it became clear to 
WVDOT that other ``shovel ready'' projects were better candidates for 
ARRA funding. The specific issue of concern was that the contract, 
which involved the construction of two bridges on new location, would 
not immediately provide transportation benefits since subsequent 
construction providing highway linkage to the bridges had not been 
funded at that time. The delivery of immediate transportation benefits 
was an important criterion that WVDOT applied in its selection of ARRA 
projects. All other large corridor expansion projects receiving ARRA 
funds in West Virginia met the goal of providing ``usable highway 
sections'' immediately upon their completion.
    This decision in no way reflected a shortcoming on the part of the 
project; rather, it reflects the challenges of constructing major 
facilities such as Corridor H in West Virginia's difficult topography. 
It is not uncommon for a phase of a complex project to be available to 
the traveling public only after subsequent funding allows for the 
completion of a ``useable section'' of roadway. In this case, the WVDOT 
identified alternative funding that could easily be used to ensure that 
the project was constructed within almost the same timeframe.
    Question. Mr. Secretary, I am also concerned that the 
administration, in its fiscal year 2010 budget request, offered up for 
cost-saving purposes the $9.5 million I added to the fiscal year 2009 
Omnibus Appropriations bill to advance construction of Corridor H. This 
action has sparked widespread panic throughout West Virginia, with 
newspapers reporting that the administration has cancelled the project 
outright. I will quote from the most recent editorial from the 
Charleston Gazette, ``Now the Obama administration wants to cancel the 
rest of Corridor H. The White House's 2010 budget supplement marked it 
for elimination even though President Obama otherwise champions 
stimulus spending for construction jobs to help overcome the recession. 
Why does the White House want to erase these jobs and deny West 
Virginians better transportation?''
    Frankly, Mr. Secretary, I ask myself the same question. Corridor H 
has been designated as a nationally significant highway, is clearly 
authorized, construction is progressing based on available funds, and 
is poised to serve as national security evacuation route in the event 
of a catastrophic event in the Washington, DC region. The mountains of 
West Virginia, while beautiful and majestic, make it extremely costly 
and difficult to build modern highways in the State. Formula monies 
just don't get it done when it comes to people's safety and livelihood. 
I make no apologies in my efforts to advance a project that was 
promised over 40 years ago and that will result in improved freight 
flow for this region of the country, and improved safety and enhanced 
economic development opportunities in West Virginia.
    Mr. Secretary, this country made a promise to the people of 
Appalachia in 1965 to open up regions of isolation with a modern 
highway system. The recent actions of this administration are clearly 
contrary to that commitment. What may I tell my constituents is the 
official position of this administration with regard to completing 
Corridor H?
    Answer. I can assure you that this administration is fully 
committed to completing Corridor H and to fulfilling the promise made 
to the citizens of Appalachia back in 1965.
    As evidence of that commitment, I would like to report on the 
efforts of our Division Office in West Virginia that works locally with 
the WVDOT to advance the construction of the Appalachian Development 
Highway System (ADHS).
    The Division has worked diligently with the WVDOT to ensure that 
ADHS dollars are programmed and obligated promptly as they become 
available.
    The Division was directly and intimately involved in the 
negotiation of the settlement agreement executed in 2000 that allowed 
construction work to resume on Corridor H after all work was halted by 
the lawsuit filed by Corridor H Alternatives. Our Division Office has 
and will continue to diligently monitor, manage, and implement the 
ongoing requirements of this agreement, which serves to help safeguard 
the continued progress of the project from additional legal challenges.
    When Governor Joe Manchin III began his term, he promised to focus 
the efforts of the WVDOT on a limited number of major corridors, 
including Corridor H, Corridor D, the Mon-Fayette Expressway, WV Route 
9 and U.S. 35. This focus by the WVDOT has, in turn, enabled our office 
to also focus the efforts of FHWA staff in helping to complete these 
corridors. The Division created a new position dedicated exclusively to 
the completion of these major corridors.
    The WV Division of FHWA along with the Appalachian Regional 
Commission (ARC) and the WVDOT provided technical assistance and 
support at the recent Corridor H Celebration Event in Moorefield on 
September 17, 2009. This event served to update the public regarding 
the progress and future plans for completing the Corridor.
    Importantly, our WV Division has worked closely with WVDOT and the 
ARC to identify potential innovative financing techniques that can 
accelerate the delivery of remaining Corridor H construction. ``Advance 
Construction'' authorizations are now used where appropriate to give 
contracts a ``running start'' using State funds which are then 
converted to Federal funds.

                         CONCLUSION OF HEARINGS

    Senator Murray. Thank you. The subcommittee will stand in 
recess, subject to the call of the Chair.
    [Whereupon, at 10:43 a.m., Thursday, June 18, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
